U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Villareal v. United States, No. 20-7790
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 13, 2021.
The government’s response is now due, after one extension, on June 16, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 16, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7790
VILLARREAL, ROLANDO
USA

MICHAEL LANCE HERMAN
FEDERAL PUBLIC DEFENDERS OFFICE
440 LOUISIANA STREET
SUITE 1350
HOUSTON, TX 77002
713-718-4600
MICHAEL_HERMAN@FD.ORG

